December 8, 2020
Pennsylvania Office of Attorney General
Criminal Law Division
Appeals & Legal Services Section
16th Floor, Strawberry Square
Harrisburg PA 17120
(Phone) (717) 787-1401
Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543
RE:

Donald Mitchell Tedford v. Pennsylvania
Case No. 20-5795 (Capital Case)

Dear Mr. Harris:
By this letter and pursuant to Rule 30.4, Respondent, the Commonwealth of
Pennsylvania, is respectfully requesting an unopposed second extension of 45 days’ time
in which to file its brief in opposition to the petition for writ of certiorari in this capital
case, from December 10, 2020 to January 25, 2021 (the 45th day is a Sunday and the next
business day is Monday, January 25, 2021).
On September 16, 2020, Petitioner Donald Tedford filed his petition for writ of
certiorari with the Court. The petition was docketed on September 24, 2020. Pursuant to
Rule 15.3, the Respondent’s brief in opposition was originally due to be filed on or
before October 26, 2020. Respondent sought an unopposed 45-day extension of this
deadline, and this Honorable Court graciously granted that request and established a new
filing deadline for the Respondent of December 10, 2020.
Although undersigned counsel has made significant progress in the preparation of
Respondent’s brief in opposition, he requires additional time beyond December 10, 2020
due to challenges posed by the Covid-19 pandemic. Specifically, undersigned counsel
continues to experience periodic difficulty accessing Westlaw working from home via his
office desktop computer. In addition, undersigned counsel has two school-aged children
who attend school remotely due to the pandemic and require supervision and assistance.
In light of these circumstances, Respondent respectfully requests the Court to find
good cause to extend the filing deadline for its brief in opposition to the petition for writ
of certiorari a second time by 45 days until January 25, 2021. Undersigned counsel has
communicated with counsel for the Petitioner, Adam Cogan, Esquire and Attorney Cogan
has graciously indicated that he and his client do not oppose this request for a second
extension of time.

Scott S. Harris, Clerk
United States Supreme Court
One First Street, NE
Washington, DC 20543

Page -2-

Thank you for your attention to this request.
Sincerely,
/s/WILLIAM R. STOYCOS
William R. Stoycos
Senior Deputy Attorney General

C:

Adam B. Cogan, Esquire

